________________________________________________________________________
No. ______
________________________________________________________________________

IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________________________

OCTOBER TERM, 2020
_____________________________________________________________
TROJAN HART
Petitioner,
against

UNITED STATES OF AMERICA
Respondent.

APPENDIX FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEAL
FOR THE SECOND CIRCUIT

BRUCE R. BRYAN, ESQ.
Counsel for Petitioner
Trojan Hart
131 West Seneca St., Suite B - 224
Manlius, NY 13104
(315) 692-2011

1

INDEX TO APPENDICES
APPENDIX A: Summary Order of the United States Court of Appeals for
the Second Circuit in United States v. Hart, ___ Fed. App’x ___, 2021 WL
1685603 (2d Cir. 2021)……………………………………………………A3
APPENDIX B: Constitutional and statutory provisions involved………A23

2

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO
A
SUMMARY ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE PROCEDURE 32.1 AND THIS COURT=S
LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER IN A DOCUMENT FILED WITH
THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION ASUMMARY ORDER@). A PARTY
CITING TO A SUMMARY ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 29th day of April, two thousand
twenty-one.
PRESENT:

DENNY CHIN,
RICHARD J. SULLIVAN,
Circuit Judges,*
DENISE COTE,
District Judge.
♦ - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -x
UNITED STATES OF AMERICA,
Appellee,
v.
18-1593 (L)
18-1731 (C)
18-1783 (C)
18-1925 (C)
TROJAN HART, AKA RED, AKA IRON MAN, OMAR
SHARPE, AKA DUMMY, RASHAWN DAVIDSON,
AKA RAY RAY,
Defendants-Appellants.
- - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - - -x
3

* Judges Ralph K. Winter and Peter W. Hall were originally members of this
panel. After their deaths, Judges Chin and Sullivan were assigned to the
panel.
♦ Judge Denise Cote of the United States District Court for the Southern
District of New York, sitting by designation.
# The Clerk of Court is respectfully directed to amend the official caption in
this case to conform to the caption above.
For Appellee United States:

HAGAN SCOTTEN, Assistant
United States Attorney (Anden Chow,
Karl Metzner, Assistant United States
Attorneys, on the brief), for Audrey
Strauss, United States Attorney for
the Southern District of New York,
New York, New York.

For Defendant-Appellant Hart:

BRUCE R. BRYAN, ESQ.,
Syracuse, New York.

For Defendant-Appellant Sharpe:

ROBIN CHRISTINE SMITH, ESQ.
(Leean Othman, Esq., on the brief),
New York, New York.

For Defendant-Appellant Davidson: DANIEL M. PEREZ, ESQ., Newton,
New Jersey.
Appeal from judgments of the United States District Court for the
Southern District of New York (Berman, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED,
ADJUDGED, AND DECREED that the judgments of the district court are
AFFIRMED except in one respect, as set forth below.
Defendants-Appellants Trojan Hart, Omar Sharpe, and Rashawn
Davidson (collectively, "defendants") appeal from judgments of conviction
4

entered May 24, 2018, May 31, 2018, and May 24, 2018, respectively,
following a jury trial at which they were found guilty of conspiring to
distribute narcotics from 2011 through 2015 as part of a drug gang known as
the "213 Conspiracy" in the Bronx. Sharpe was also convicted of possessing
with intent to distribute heroin and using and possessing firearms, during
and in furtherance of the conspiracy, and Davidson was also convicted of
possessing with intent to distribute 28 grams or more of cocaine base. Hart
and Davidson were sentenced principally to 165 months' imprisonment.
Sharpe was sentenced principally to 240 months' imprisonment. We assume
the parties' familiarity with the underlying facts, procedural history of the
case, and arguments on appeal.
I. Davidson's Suppression Motion
Detective Jeremiah Williams and Officer Michael Whelan arrested
Davidson for possessing a bag of crack cocaine. Davidson moved to
suppress that evidence on the ground that the officers lacked probable cause
to arrest him. Following a hearing, the district court denied the motion.
When considering a district court's denial of a suppression motion,
"we construe the evidence in the light most favorable to the government, and
review the district court's factual findings for clear error, and its legal

5

conclusions de novo." United States v. Garcia, 339 F.3d 116, 118–19 (2d
Cir. 2003).
First, Davidson argues that the district court erred in crediting
Williams's and Whelan's testimony, pointing out several supposed
inconsistencies. We find no meaningful inconsistency with respect to the
testimony Davidson highlights and therefore decline to disturb the district
court's credibility finding.
Second, Davidson argues that the circumstances of his arrest do not
give rise to probable cause. We disagree for substantially the reasons stated
by the district court, including that Williams saw Davidson pull a plastic bag
out of the waistband of his pants while standing with another man on the
sidewalk; Davidson, upon making eye contact with Williams, looked
shocked and put the plastic bag back into his pants; Williams could see a
white substance in the portion of the plastic bag sticking out of Davidson's
waistband; and Whelan saw a bulge in his pants. See United States v.
Valentine, 539 F.3d 88, 93 (2d Cir. 2008) ("Probable cause to arrest a person
exists if the law enforcement official, on the basis of the totality of the
circumstances, has sufficient knowledge or reasonably trustworthy
information to justify a person of reasonable caution in believing that an
offense has been or is being committed by the person to be arrested."

6

(internal quotation marks omitted)); United States v. Canieso, 470 F.2d
1224, 1228 (2d Cir. 1972) ("When an experienced narcotics agent has seen a
quantity of bags containing white powder in the possession of the suspects,
little, if anything, more is needed to show probable cause.").
II. The Restraints on Sharpe and Hart
Hart and Sharpe argue that their due process rights were violated
when the district court authorized the marshals to restrain them with leg
shackles during trial. Physical restraints may be used during trial "only when
the court has found those restraints to be necessary to maintain safety or
security; but the court must impose no greater restraints than are necessary,
and it must take steps to minimize the prejudice resulting from the presence
of the restraints." United States v. Haynes, 729 F.3d 178, 189 (2d Cir. 2013)
(internal quotation marks omitted). As long as the district court has not
improperly delegated the decision to restrain a defendant, its decision is
reviewable for abuse of discretion. Davidson v. Riley, 44 F.3d 1118, 1124
(2d Cir. 1995). We find no abuse of discretion in the district court's decision
to place leg restraints on Hart and Sharpe.
Hart argues that the district court should not have resorted to the leg
restraints without first trying other methods, including a warning that a
defendant would be held in contempt, or finding that other methods would

7

be futile. But neither Illinois v. Allen, 397 U.S. 337 (1970), nor any other
authority cited by Hart requires a district judge to try other methods first or
to use the words "necessary as a last resort" when stating on the record that
leg shackles are necessary.
Hart also contends that the district court impermissibly delegated to
the marshals the decision to shackle the defendants. Although the district
judge at first indicated that he was deferring to the marshals on the issue, the
following day he entered a written statement into the record that made it
clear that his decision to shackle the defendants was based on his
independent judgment. Hart Sp. App'x 3. Even if there was an insufficient
basis for restraining Hart and Sharpe on the first day they were restrained,
we conclude that the error was harmless in light of the independent decision
made by the judge the following morning and the measures taken from the
outset to shield the restraints from the jury's view.
III. Evidentiary Rulings
We review a district court's evidentiary rulings for abuse of discretion.
United States v. Rosemond, 841 F.3d 95, 107 (2d Cir. 2016).
A. Cross-Examination Regarding Officers' Disciplinary
Proceedings

8

The district court precluded questioning of Williams and Whelan
concerning past disciplinary proceedings against them that were unrelated to
this case. The district court did not abuse its discretion in disallowing this
evidence, because the officers' disciplinary violations had "little, if any,
plausible relevance" to their credibility and offered "nothing of value with
respect to [the officers'] motivation to lie about the circumstances" of this
case. United States v. Lawes, 292 F.3d 123, 131-32 (2d Cir. 2002).
B. Sharpe's 2009 Arrest and Statement About the Firearm
Sharpe challenges the admission of his 2009 arrest and a statement he
made in connection with that arrest. The arrest was made in an apartment
within "213 Conspiracy" territory, where police officers observed several
individuals, including Sharpe and other defendants in this case, in possession
of drugs. The officers also recovered an unloaded firearm. The officer who
arrested Sharpe testified that later, when the arrestees were in the holding
cell at the station, Sharpe said that the officers "were lucky the gun wasn't
loaded because if it would have . . . he would have bust our melon." Tr. 754.
The officer understood that to mean that Sharpe would have shot the officers
in the head.
On appeal, Sharpe argues that this evidence should have been
excluded under Fed. R. Evid. 403 and 404(b). We disagree with regard to

9

evidence of the arrest. We have long recognized that "it is within the [trial]
court's discretion to admit evidence of prior acts to inform the jury of the
background of the conspiracy charged, in order to help explain how the
illegal relationship between participants in the crime developed, or to
explain the mutual trust that existed between coconspirators." United States
v. Diaz, 176 F.3d 52, 79 (2d Cir. 1999) (alteration in original) (quoting
United States v. Rosa, 11 F.3d 315, 334 (2d Cir. 1993)). In light of the
circumstances of the arrest, we cannot say that its admission was more
prejudicial than probative.
The subsequent statement about the firearm, however, is not clearly
direct evidence of the conspiracy nor plainly admissible under Fed. R. Evid.
404(b). But even assuming it was error to admit the statement, we conclude
that any such error was harmless because there was ample evidence that
Sharpe possessed firearms in furtherance of the conspiracy. See United
States v. Snow, 462 F.3d 55, 62–63 (2d Cir. 2006) (finding a sufficient nexus
between firearm possession and drug conspiracy exists where "the charged
weapon is readily accessible to protect drugs, drug proceeds, or the drug
dealer himself"). The risk of unfair prejudice was low because the jury heard
evidence that Sharpe actually shot at people on more than one occasion.
C. Facebook Post Describing Sharpe as "the Savage"

10

At trial, the government offered a Facebook post by one of defendants'
coconspirators in which Sharpe and Davidson were pictured together with
the caption "Free the plug ray ray out the #fedz and the savage dumout miss
my n****s." Gov't Add. 14. Another co-conspirator, Manny McKenzie,
explained that "ray ray" referred to Davidson and "plug" meant that
Davidson was "the connect for crack." Tr. 113, 198–99. McKenzie also
explained that "dum" referred to Sharpe, and "savage" meant "[s]omeone
who puts in work," further explaining that "work" meant "violence—
shooting, stabbing, fighting." Tr. 241–42.
Sharpe argues that this Facebook post should not have been admitted
because it is more prejudicial than probative. We disagree. The
Government's theory of the case with respect to Davidson and Sharpe was
that Davidson was the drug supplier and Sharpe was a retail dealer who
committed acts of violence for the conspiracy. The Facebook post provided
strong support for that theory. Any inflammatory effect of the word "savage"
was mitigated by the co-conspirator's explanation of that term's specific
meaning.1
1 In a Rule 28(j) letter, Sharpe argues that the facts in this case are similar to
those in United States v. Nolan, 956 F.3d 71 (2d Cir. 2020). This argument
is unpersuasive: the two photographs depict different things, have different
captions, and were used by the Government for different purposes.

11

D. Testimony About Hart's Civil Lawsuit Against Officer Michael
Gonzales
In 2014, police officers, including Officer Michael Gonzalez,2
arrested Hart at a party, resulting in serious injuries to Hart and, according to
the officers, to Gonzales. Hart brought a civil suit against Gonzalez and
others, which was pending at the time of the criminal trial. The district court
did not allow testimony about Hart's civil suit, reasoning that it "ha[d]
nothing to do with this case" and would create "a trial within a trial." Hart
App'x 157.
On appeal, Hart argues that the district court abused its discretion by
denying him the opportunity to pursue the defense theory that Gonzales and
other officers were "biased and influenced cooperating co-defendants to
implicate him in retaliation for the civil lawsuit." Hart Br. 74. We are not
persuaded. None of the officers involved in the 2014 arrest testified against
Hart, and there was thus no need for Hart to impeach their

2 Gonzales was involved in the events underlying this prosecution only to
the extent that he participated in the execution of a search warrant, during
which three of Hart's co-defendants were arrested. Hart was not present.

12

credibility at trial.3 As for Hart's theory that Gonzales might have
improperly influenced McKenzie, a cooperating witness whom Gonzales
arrested in 2015, Hart's counsel questioned McKenzie and Gonzales about
their interaction, but that line of questioning resulted in no evidence
suggesting that Gonzales exerted such influence. The district court therefore
was well within its discretion to exclude testimony about Hart's civil suit.
See United States v. Al Kassar, 660 F.3d 108, 124 (2d Cir. 2011).
E. Stipulations
Hart and the Government negotiated two stipulations that ultimately
were not entered into evidence: (1) a stipulation to the authenticity of
recordings made during the wiretap of McKenzie's phone, and (2) a
stipulation to the total number of calls between McKenzie and Hart during a
certain time period. At trial, Hart initially objected to the two stipulations,
but when the government proposed to put on relevant, incriminating
evidence through live witnesses, Hart's counsel argued that the stipulations
should be entered in lieu of the testimony. The district court excluded the
stipulations, and Hart argues that the district court erred in doing so.

3 Gonzales testified as a defense witness.

13

We need not decide whether it was error in the circumstances here for
the district court to reject the stipulations, because any error was harmless.
To be sure, the testimony introduced as a result of the district court's
exclusion of the stipulations was incriminating. But the evidence of Hart's
involvement in the conspiracy was overwhelming: three coconspirators
testified about his involvement as a supplier, a police officer caught Hart
with 35 bags of heroin, and Hart was repeatedly intercepted on the wiretap
of McKenzie's phone. We can conclude beyond a reasonable doubt that the
jury would have convicted Hart of the narcotics conspiracy charge even
without the live testimony reciting Hart's incriminating statement.
IV. Sharpe's Ineffective Assistance of Counsel Claim
Sharpe asserts a claim of ineffective assistance of counsel on the
ground that his trial counsel should have objected to the admission of
testimony regarding three uncharged firearm incidents. Sharpe's ineffective
assistance claim is not amenable to resolution on direct appeal, however,
because, contrary to Sharpe's assertion, his trial counsel's ineffectiveness is
not "beyond any doubt" based on the record before the Court. Sharpe Br. 47;
see Massaro v. United States, 538 U.S. 500, 504 (2003). Sharpe may raise
the issue later pursuant to 28 U.S.C. § 2255.

14

V. Jury Instructions
"We review challenged jury instructions de novo but will reverse only
if all of the instructions, taken as a whole, caused a defendant prejudice."
United States v. Applins, 637 F.3d 59, 72 (2d Cir. 2011) (internal quotation
marks omitted). "A jury instruction is erroneous if it misleads the jury as to
the correct legal standard or does not adequately inform the jury on the law."
United States v. Roy, 783 F.3d 418, 420 (2d Cir. 2015) (internal quotation
marks omitted). In reviewing a jury instruction, we consider "the instructions
as a whole to see if the entire charge delivered a correct interpretation of the
law." Al Kassar, 660 F.3d at 127 (internal quotation marks omitted).
A. Davidson's Adverse Inference Instruction
Davidson argues that the district court should have given an adverse
inference instruction based on the fact that Detective Williams threw away
his phone, which contained a video of Davidson's arrest, after it was "run
over" and "smashed." Tr. 442-43. But Davidson waived this argument when
his counsel made a "conscious tactical decision" not to submit a request for
the adverse inference instruction below. United States v. Kon Yu-Leung, 51
F.3d 1116, 1123 (2d Cir. 1995); see United States v. Spruill, 808 F.3d 585,
597 (2d Cir. 2015) ("[W]aiver is accomplished by intent . . . ." (internal
quotation marks omitted)).

15

B. Response to Jury Note
During deliberations, the jury sent a note saying: "Is the amount of the
narcotic based on the entire conspiracy or just based on that individual's
involvement?" Hart App'x 207. The note also indicated that the jury "reread"
but sought "clarification" of page 19 of the court's instruction regarding
whether the drug quantity was "reasonably foreseeable" to each defendant.
Hart App'x 207. All parties agreed that, in response, the district court should
direct the jury to two paragraphs of its instruction, which explained how to
determine the relevant amount for each defendant. The Government
recommended just those two paragraphs, while the defense wanted the court
to include other portions of the original instruction as well, including the
definition of "[r]easonably foreseeable." Tr. 1754. The court directed the
jury's attention only to the two paragraphs.
Hart argues that the district court gave an "imbalanced" and
inadequate supplemental instruction by failing to include the sentence
defining "reasonably foreseeable." Hart Br. 70. He asserts that, as a result, it
was "impossible" for the jury to determine correctly whether Hart "met the
threshold drug quantity," such that his conviction should be reversed. Hart
Br. at 71. We are not persuaded. First, there was no "threshold drug
quantity" needed to convict Hart of narcotics conspiracy. See 21 U.S.C. §§

16

841(b)(1)(C), 846. Second, given that there was no objection to the initial
jury charge and the supplemental charge did nothing more than reference the
initial charge, Hart has not shown that the district court committed reversible
error. See Al Kassar, 660 F.3d at 127.
VI. Sentencing Issues
A. Davidson
Davidson challenges the procedural reasonableness of his sentence of
165 months' imprisonment. Specifically, Davidson contends that certain
prior convictions should have been counted as relevant conduct rather than
prior sentences. In determining Davidson's Criminal History Category, the
U.S. Probation Department ("Probation") included two points for a 2006
state drug conviction and three points for a 2010 federal drug conviction.
Both convictions arose from Davidson's drug activities in the 213th Street
area.
Davidson argues that the 2010 conviction should be considered
relevant conduct because the district court ruled that the conviction was
admissible at trial as direct proof of the present conspiracy. This argument
conflates the evidentiary concept of relevance with the specific meaning of
"relevant conduct" within the Sentencing Guidelines. See U.S.S.G. §§
1B1.3(a)(1), 1B1.3(a)(2), 4A1.2(a)(1), 4A1.2 Application Note 1. Although

17

the 2010 conviction is relevant to the issue of Davidson's membership in the
213 Conspiracy, it does not count as conduct that is part of the instant
offense because it occurred before the period covered by the indictment in
this case. See U.S.S.G. § 1B1.3 Application Note 5(C); cf. United States v.
Thomas, 54 F.3d 73, 84 (2d Cir. 1995) (prior conviction that was admitted at
trial might constitute relevant conduct because, among other reasons, it was
for conduct that occurred "a few months after the period covered by the
present indictment").
Davidson also challenges the substantive reasonableness of his
sentence. He argues that the district court failed to give sufficient
consideration to his "horrific upbringing" and the "nurturing side" of his
character. Davidson Br. 67, 69. The district Case 18-1593, Document 294-1,
04/29/2021, 3089405, Page14 of 18 15 court gave due consideration,
however, to Davidson's childhood circumstances, including the
murder/suicide of his parents, and to the letters of support that described
Davidson's positive attributes. Davidson's below-Guidelines sentence falls
"within the range of permissible decisions." United States v. Rigas, 490 F.3d
208, 238 (2d Cir. 2007) (internal quotation marks omitted).

18

B. Hart
Hart challenges only the substantive reasonableness of his sentence,
arguing, inter alia, that the district court should have given greater weight to
mitigating factors. The district court thoughtfully considered Hart's
traumatic childhood circumstances, his medical issues, his community
engagement, his statement at sentencing, and the letters of support from his
family members. In light of those factors, the court imposed a sentence well
below the undisputed Guidelines range. The district court did not exceed the
bounds of its discretion in imposing the 165-month sentence.
VII. Conditions of Supervised Release
A. Standard Condition of Supervised Release No. 12
Defendants challenge the constitutionality of one of their conditions
of supervised release, which provides:
If the probation officer determines that you pose a risk to another
person (including an organization), the probation officer may require
you to notify the person about the risk and you must comply with that
instruction. The probation officer may contact the person and confirm
that you have notified the person about the risk.
Hart Sp. App'x 15. After defendants were sentenced, we held in another case
that the aforementioned condition is impermissibly vague and affords too
much discretion to probation officers. United States v. Boles, 914 F.3d 95,
111–12 (2d Cir. 2019). In light of Boles, the United States District Court for

19

the Southern District of New York issued a standing order "vacating and
eliminating" what it terms "Old Standard Condition #12," and replacing it
with a new standard condition, which provides:
If the probation officer determines, based on your criminal record,
personal history or characteristics, that you pose a risk to another
person (including an organization), the probation officer, with the
prior approval of the Court, may require you to notify the person
about the risk and you must comply with that instruction. The
probation officer may contact the person and confirm that you have
notified the person about the risk . . . .
Gov't Br. Add. 21–22. Defendants argue that the new condition is still
unconstitutionally vague.
We need not reach this issue because there is no indication that
defendants are subject to the new condition of release, which is contingent
on the probation officer making a determination of risk and the district court
approving the requirement of notification. See Gov't Br. Add 22 (imposing
New Standard Condition #12 only where Probation recommends it to the
court). As we previously held in connection with a similar condition of
supervised release, unless and until a condition of supervised release is
actually imposed, the inquiry remains "an abstraction" unripe for appellate
review. United States v. Traficante, 966 F.3d 99, 106 (2d Cir. 2020)
(rejecting an identical challenge because it, too, was unripe).

20

B. Substance Abuse Treatment Condition
Sharpe challenges the district court's imposition of a special condition
of supervised release that required him to participate in a substance abuse
treatment and testing program "if deemed necessary by probation." Sharpe
App'x 124. Sharpe argues that the district court impermissibly delegated to
Probation its sentencing authority by allowing Probation to determine
whether it is necessary for Sharpe to participate in a substance abuse
program.4
Sharpe's argument has merit. See United States v. Peterson, 248 F.3d
79, 85 (2d Cir. 2001) (vacating condition of release because, if defendant
was "required to participate in a mental health intervention only if directed
to do so by his probation officer, then this special condition constitutes an
impermissible delegation of judicial authority to the probation officer");
Matta, 777 F.3d at 123 (district court impermissibly delegated sentencing
authority by allowing Probation to determine whether defendant should
undergo inpatient or outpatient drug treatment as a condition of release). The
substance abuse treatment condition imposed on Sharpe is an impermissible
delegation of the district court's sentencing authority.
4 Sharpe did not object to that condition at sentencing. Under these
circumstances, we apply "a 'relaxed' form of plain error review." United
States v. Matta, 777 F.3d 116, 121 (2d Cir. 2015).

21

We therefore vacate this aspect of Sharpe's sentence and remand for
resentencing in this respect only.
CONCLUSION
We have considered defendants' remaining arguments and find them
to be without merit. The judgments of the district court are AFFIRMED
except that the judgment against Sharpe is VACATED with respect to the
substance abuse treatment condition and otherwise AFFIRMED. The case
is REMANDED for resentencing as to Sharpe and only to the extent set
forth above.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk of Court

22

APPENDIX B
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U. S. CONSTITUTION
Fifth Amendment
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service in
time of War or public danger; nor shall any person be subject for the same
offence to be twice put in jeopardy of life or limb; nor shall be compelled in
any criminal case to be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor shall private property be
taken for public use, without just compensation.
Sixth Amendment
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime
shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.
STATUTES
18 U.S.C. §3553(a)
(a) Factors to be considered in imposing a sentence.--

The court shall impose a sentence sufficient, but not greater than necessary,
to comply with the purposes set forth in paragraph (2) of this subsection.
The court, in determining the particular sentence to be imposed, shall
consider—
(1) the nature and circumstances of the offense and the history and
23

characteristics of the defendant;
(2) the need for the sentence imposed-(A) to reflect the seriousness of the offense, to promote respect for the
law, and to provide just punishment for the offense;
(B) to afford adequate deterrence to criminal conduct;
(C) to protect the public from further crimes of the defendant; and
(D) to provide the defendant with needed educational or vocational
training, medical care, or other correctional treatment in the most
effective manner;
(3) the kinds of sentences available;
(4) the kinds of sentence and the sentencing range established for-(A) the applicable category of offense committed by the applicable
category of defendant as set forth in the guidelines-(i) issued by the Sentencing Commission pursuant to section
994(a)(1), United States Code, subject to any amendments
made to such guidelines by act of Congress (regardless of
whether such amendments have yet to be incorporated by the
Sentencing Commission into amendments issued under section
994(p) 0f title 28); and
(ii) that, except as provided in section 3742(g), are in effect on
the date the defendant is sentenced; or
(B) in the case of a violation of probation or supervised release, the
applicable guidelines or policy statements issued by the Sentencing
Commission pursuant to section 994(a)(3) of title 28, United States
Code, taking into account any amendments made to such guidelines or
policy statements by act of Congress (regardless of whether such
amendments have yet to be incorporated by the Sentencing
Commission into amendments issued under section 994(p) of title 28);

24

(5) any pertinent policy statement-(A) issued by the Sentencing Commission pursuant to section
994(a)(2) of title 28, United States Code, subject to any
amendments made to such policy statement by act of Congress
(regardless of whether such amendments have yet to be
incorporated by the Sentencing Commission into amendments
issued under section 994(p) of title 28); and
(B) that, except as provided in section 3742(g) is in effect on
the date the defendant is sentenced.
(6) the need to avoid unwarranted sentence disparities among
defendants with similar records who have been found guilty of similar
conduct; and
(7) the need to provide restitution to any victims of the offense.
21 U.S.C 841
(a) Unlawful acts
Except as authorized by this subchapter, it shall be unlawful for any person
knowingly or intentionally-(1) to manufacture, distribute, or dispense, or possess with intent to
manufacture, distribute, or dispense, a controlled substance; or
(2) to create, distribute, or dispense, or possess with intent to distribute or
dispense, a counterfeit substance.
(b) Penalties
Except as otherwise provided in section 849, 859, 860, or 861 of this title,
any person who violates subsection (a) of this section shall be sentenced as
follows:
(1)(A) In the case of a violation of subsection (a) of this section involving-(i) 1 kilogram or more of a mixture or substance containing a detectable
amount of heroin;
25

(ii) 5 kilograms or more of a mixture or substance containing a detectable
amount of-(I) coca leaves, except coca leaves and extracts of coca leaves from which
cocaine, ecgonine, and derivatives of ecgonine or their salts have been
removed;
(II) cocaine, its salts, optical and geometric isomers, and salts of isomers;
(III) ecgonine, its derivatives, their salts, isomers, and salts of isomers; or
(IV) any compound, mixture, or preparation which contains any quantity of
any of the substances referred to in subclauses (I) through (III);
(iii) 280 grams or more of a mixture or substance described in clause
(ii) which contains cocaine base;
(iv) 100 grams or more of phencyclidine (PCP) or 1 kilogram or more
of a mixture or substance containing a detectable amount of
phencyclidine (PCP);
(v) 10 grams or more of a mixture or substance containing a
detectable amount of lysergic acid diethylamide (LSD);
(vi) 400 grams or more of a mixture or substance containing a
detectable amount of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl]
propanamide or 100 grams or more of a mixture or substance
containing a detectable amount of any analogue of N-phenyl-N-[1-(2phenylethyl)-4-piperidinyl] propanamide;
(vii) 1000 kilograms or more of a mixture or substance containing a
detectable amount of marihuana, or 1,000 or more marihuana plants
regardless of weight; or
(viii) 50 grams or more of methamphetamine, its salts, isomers, and
salts of its isomers or 500 grams or more of a mixture or substance
containing a detectable amount of methamphetamine, its salts,
isomers, or salts of its isomers;
26

such person shall be sentenced to a term of imprisonment which may
not be less than 10 years or more than life and if death or serious
bodily injury results from the use of such substance shall be not less
than 20 years or more than life, a fine not to exceed the greater of that
authorized in accordance with the provisions of Title 18 or
$10,000,000 if the defendant is an individual or $50,000,000 if the
defendant is other than an individual, or both. If any person commits
such a violation after a prior conviction for a serious drug felony or
serious violent felony has become final, such person shall be
sentenced to a term of imprisonment of not less than 15 years and not
more than life imprisonment and if death or serious bodily injury
results from the use of such substance shall be sentenced to life
imprisonment, a fine not to exceed the greater of twice that authorized
in accordance with the provisions of Title 18 or $20,000,000 if the
defendant is an individual or $75,000,000 if the defendant is other
than an individual, or both. If any person commits a violation of this
subparagraph or of section 849, 859, 860, or 861 of this title after 2 or
more prior convictions for a serious drug felony or serious violent
felony have become final, such person shall be sentenced to a term of
imprisonment of not less than 25 years and fined in accordance with
the preceding sentence. Notwithstanding section 3583 of Title 18, any
sentence under this subparagraph shall, in the absence of such a prior
conviction, impose a term of supervised release of at least 5 years in
addition to such term of imprisonment and shall, if there was such a
prior conviction, impose a term of supervised release of at least 10
years in addition to such term of imprisonment. Notwithstanding any
other provision of law, the court shall not place on probation or
suspend the sentence of any person sentenced under this
subparagraph. No person sentenced under this subparagraph shall be
eligible for parole during the term of imprisonment imposed therein.
Fed. R. Evid. 106
If a party introduces all or part of a writing or recorded statement, an adverse
party may require the introduction, at that time, of any other part--or any
other writing or recorded statement--that in fairness ought to be considered
at the same time.

27

Fed. R. Evid. 401
Evidence is relevant if:
(a) it has any tendency to make a fact more or less probable than it would be
without the evidence; and
(b) the fact is of consequence in determining the action.
Fed. R. Evid. 611(b)
(b) Scope of Cross-Examination. Cross-examination should not go beyond
the subject matter of the direct examination and matters affecting the
witness's credibility. The court may allow inquiry into additional matters as
if on direct examination.

28

